No. 19-1328
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEPARTMENT OF JUSTICE, PETITIONER
v.
HOUSE COMMITTEE ON THE JUDICIARY
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR PETITIONER, via e-mail, this 18th day of June 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,972 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on June 18, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 18, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1328
DEPARTMENT OF JUSTICE
HOUSE COMMITTEE ON THE JUDICIARY

DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

